<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2014 

                              ----------                              

                                          Thursday, April 18, 2013.

                 DEPARTMENT OF VETERANS AFFAIRS BUDGET

                                WITNESS

HON. ERIC K. SHINSEKI, SECRETARY, DEPARTMENT OF VETERANS AFFAIRS

                       Chairman Opening Statement

    Mr. Culberson. Good morning. The Subcommittee on Military 
Construction and Veterans Affairs will come to order. We 
delighted to have with us the Secretary of Veterans Affairs, 
and we have got a lot of questions for you and a vote coming up 
in about an hour, and I know the members of the committee all 
have questions for you, Mr. Secretary. And we are delighted to 
have you here and appreciate your service to the country. As 
each and every one, we are grateful to your service to the 
Nation and our men and women who have served our country so 
faithfully. And I would like at this time to introduce my 
friend Mr. Bishop for any statement he would like to make.

                    Ranking Member Opening Staetment

    Mr. Bishop. Thank you very much, Mr. Chairman.
    Mr. Chairman, we have done a lot to ease the burden of 
military service. For example, Congress passed the 9/11 GI 
bill, the Hiring Heroes Act, and the Caregivers Act all with 
very strong bipartisan majorities. However, we are still 
struggling in one area that can make a world of difference to a 
veteran, and this is the area of the claims process.
    We have a serious problem in the country when there are 
over 850,000 veterans waiting compensation claims and over 
600,000 that have waited in excess of 125 days, commonly 
referred to as backlogged. I have heard from many on the 
reasons for the backlog, and the inclusion of the Agent Orange, 
the winding down of the wars in Iraq and Afghanistan, the 
complexity of the new wounds, both physical and mental, to our 
veterans and others, but what I want to hear today and what I 
would like to discuss is what is actually being done to fix it.
    I want to talk about results and how this fiscal year 2014 
budget is going to achieve those results. How are the 
initiatives and funding in this budget going to meet the 
Department's goal to end the backlog by 2015? Because we can 
talk about increases in spending for VA until we are blue in 
the face, but if there are no results, then we are just wasting 
time and resources.
    Mr. Chairman, when it comes to wasting resources in this 
current budget climate, I can't tell you how frustrated and how 
disappointed I am and many Members are in the recent 
announcement on the integrated electronic health record 
program. Less than a year ago, Mr. Secretary, you and Secretary 
Panetta appeared before Congress, promising to develop a single 
common joint electronic health record that would, according to 
your statement then, unify the two Departments' electronic 
health record systems into a common system to ensure that all 
DOD and VA health facilities have service members' and 
veterans' health information available throughout their 
lifetimes.
    I am aware of the statement that was issued within the last 
48 hours by Secretary Hagel, but I personally believe that DOD 
probably shoulders much more of the blame in this area than the 
VA, and also much more of the wasted cost; but nonetheless, I 
am very, very weary of the promises made to the Members of this 
Congress on behalf of veterans with no results.
    So, Mr. Secretary, when I talk to veterans, their number 
one issue is always VA claims, and the number one issue being 
worked by my staff in our district offices is VA claims. The 
veterans in my district are growing impatient, and so am I.
    So, Mr. Chairman, today is a very important hearing, and I 
know I speak for many of our colleagues and for Secretary 
Shinseki when I discuss how frustrated we all are with the 
situation. I know this is a problem that won't be fixed 
overnight, but my hope today is that we can focus on how we fix 
this problem together and how we fix it quickly, not just for 
the veterans waiting today, but for future generations of 
veterans to come.
    Mr. Chairman, thank you for the opportunity to share my 
concerns, and I yield back.
    Mr. Culberson. Thank you, Mr. Bishop.
    I share those sentiments with Mr. Bishop. It is just truly 
unacceptable the length of time it has taken to handle the 
disability claims process, and the absence of a unified 
electronic medical record is something that has absolutely got 
to be solved immediately.
    Now it is my pleasure to introduce and recognize the 
distinguished chairman of the full committee, the gentleman 
from Kentucky, Mr. Rogers.

               Full Committee Chairman Opening Statement

    Mr. Rogers. Thank you, Chairman Culberson, for yielding me 
this time. Secretary Shinseki and your staff, thank you for 
being with us today to discuss your 2014 budget. And I have 
already lamented the fact that this budget is woefully late, 
and in its totality it has got a lot of gimmicks, tax 
increases, generally unhelpful, but we will persevere.
    Let me begin by taking this opportunity to thank the 
service and sacrifice of the veterans that you are representing 
here today. As this subcommittee has done in the past, we want 
to reaffirm our commitment to providing our Nation's veterans 
with the benefits they deserve. The Department of Veterans 
Affairs budget we will be discussing in detail today provides 
the funding for VA, medical care compensation benefits, as well 
as education benefits, vocational rehab and housing loan 
programs. We have the responsibility to ensure that after 
serving our Nation with dignity and honor, our Nation's 
veterans receive the best care available.
    Along with other members of the subcommittee, I share the 
concern about the backlog of disability claims. While there has 
been an unprecedented demand after 10 years of war, changes to 
PTSD and Agent Orange eligibility and other revisions resulting 
in 940,000 veterans added to the system over the last 4 years, 
it is woefully unacceptable that 70 percent of these pending 
claims are over 125 days old. That is especially disconcerting 
as this subcommittee has gone to great lengths to make 
additional investments in processing and efficiency. I am, 
however, encouraged to hear about recent contract awards to 
speed electronic document conversion, and am hopeful that you 
can quickly build on these steps to significantly reduce, if 
not end, the backlog by 2015.
    You may recall that last year I and other members of the 
subcommittee emphasized to you how important we feel it is for 
the VA and the Defense Department to create an integrated 
electronic health record. We were encouraged by the progress 
both Departments seemed to be making on that effort, but I 
understand now that you and DOD have opted to create two 
separate record systems that would be interoperable. We hope 
that you will be able to convince us that this revised approach 
will produce the same result without delays and without 
increased costs.
    Finally, as you and I have briefly chatted before the 
meeting, prescription drug abuse, the Nation's fastest-growing 
drug problem, remains one of my top priorities. The Centers for 
Disease Control calls it a national epidemic. It is killing 
more people than car wrecks, just simply prescription drug 
overuse and abuse. In the past several years, we have had many 
discussions on how we can better help our veterans prevent 
prescription drug abuse or offer assistance to those facing 
addiction, and I look forward to continuing to work with you as 
we tackle this epidemic.
    And I know our active duty military and our veterans are 
sort of in a different posture in relation to this problem 
because of the multiple moves they have had to make in their 
career in different theatres, in different hospitals and 
medical care around the world, and I know that presents extra 
challenges for you, but this is a deadly problem that I know 
that you are working on, and I appreciate that.
    I yield back, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Chairman.
    It is my privilege to recognize the distinguished ranking 
member Mrs. Lowey from New York.

            Full Committee Ranking Member Opening Statement

    Mrs. Lowey. And I thank you, Mr. Chairman. And I would like 
to thank you and Ranking Member Bishop for holding this 
important hearing, and welcome Secretary Shinseki and all of 
our distinguished guests this morning.
    As the subcommittee works on the fiscal year 2014 bill, we 
have to help the Department of Veterans Affairs address very 
serious challenges. We must ensure that the men and women who 
have faithfully served our Nation receive the recognition and 
benefits they earned. We can never renege on the promises made 
to our veterans.
    Mr. Secretary, I commend you on the excellent work you have 
done in the past 4 years to substantially reduce veteran 
homelessness. I am also pleased with your progress to help 
facilitate a smoother transition from active duty to civilian 
life, but as you have heard from my colleagues on both sides of 
the aisle, I cannot express how outraged I am with the veterans 
claims backlog. As you know, there are currently up to 600,000 
veterans waiting 125 days or more to have their medical claims 
processed. The VA's annual claims receipts are expected to 
reach 1.2 million in 2013, an increase of almost 60 percent 
since 2005.
    On Tuesday, I asked Secretary Hagel about the Department of 
Defense's role in the claims backlog. Both Departments, in my 
judgment--and I didn't know it was resolved, Mr. Chairman, but 
in my judgment, after hearing a lot of testimony and talking to 
many people, it seems to me they must use either the same 
electronic health record system, which is preferable, or ones 
that work seamlessly with each other.
    I asked Secretary Hagel how he plans to help the VA to 
reduce this backlog, because, frankly, there are many people 
with whom I have spoken that put the blame on the Department of 
Defense for not getting their act together and working 
seamlessly with your system. He told me, Secretary Hagel, that 
DOD would decide on an electronic medical records plan within 
30 days. So I look forward to hearing about that.
    I just want to submit these pictures to include in the 
record. I probably should have blown them up, but I can't 
believe it, boxes and boxes of records. I don't know if you 
have seen them, Mr. Secretary. These are claim folders in 
Winston-Salem, North Carolina. I would like to ask you all 
later when I ask a question if you have taken a look at that, 
and if you have, how do you sleep at night? Boxes and boxes of 
records in Winston, North Carolina. If you would like to see 
them, I will pass these on to you, but I am submitting them for 
to the record.
    Mr. Culberson. They will be entered in the record.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Lowey. It is really amazing to me that these paper 
files exist, and these brave young men and women who are 
serving our country, many come back without limbs, have their 
records to sit in a box.
    Now, I know everyone here, everyone in this room, you have 
heard from all my colleagues, wants to fix this shameful 
problem, yet it persists. I just hope at this point we can all 
work together to address this pressing issue. And I look 
forward to hearing your testimony, Mr. Secretary. I thank you 
again for your service to your country, and I do hope that the 
new Secretary of Defense works with you and gets this done, 
because the public just can't get it. You know, if we can go to 
war, and we have an extraordinary military, and we can't solve 
this problem and get these records out of the boxes, that is 
just wrong. So, enough.
    Thank you very much, Mr. Chairman.
    Mr. Culberson. Thank you very much, Mrs. Lowey.
    Mr. Secretary, I know that you and your staff can see 
clearly that we are, all of us on this subcommittee and the 
Congress, arm in arm in complete agreement that the backlog is 
unacceptable; that we have, as a Congress--you know that we 
have made massive investments in Veterans Administration, 
exempted you from the sequestration. You have seen a 16 percent 
increase in funding for your budget in the mandatory programs; 
tremendous support from the Congress and unanimous, adamant 
feelings on our part that this has to change. The backlog has 
to change, and the electronic medical records need to be 
unified. We know you have done your part as best you can on the 
medical records.
    But we look forward to your testimony. We encourage you to 
summarize it, we have got votes at about 11:30, and help us 
focus on the problems that we can help you solve. We want to 
hear, obviously, about the successes, but talk to us about the 
problems. We appreciate very much your service to the country 
and look forward to your testimony, and your entire statement 
will be entered into the record, and we look forward to hearing 
from you, sir. Thank you.

                         Secretary's Statement

    Secretary Shinseki. Thank you.
    Chairman Culberson, Ranking Member Bishop, Chairman Rogers, 
Ranking Member Lowey, other distinguished members of the 
committee, thank you for this opportunity to present the 
President's 2014 and 2015 advance appropriations requests for 
VA. We deeply value your partnership and support in providing 
the resources needed to assure the quality of care and services 
we provide to veterans.
    Let me also acknowledge other partners who are in the room 
today, some of our veteran service organizations, whose 
insights and support make us much better at our mission of 
caring for veterans, their families and our survivors.
    Mr. Chairman, I would just like to take a minute to 
introduce others who are here at the witness table with me. To 
my left, far left, your right, is Mr. Stephen Warren, our 
Acting Assistant Secretary for Information and Technology. To 
my left is Todd Grams, our Chief Financial Officer. To my right 
is Dr. Randy Petzel, Under Secretary for Health. To his right, 
Allison Hickey, Under Secretary for Benefits. And then to the 
far right, Steve Muro, who is Under Secretary for Memorial 
Affairs.
    Mr. Chairman, thank you for accepting my written statement 
for the record. Let me just say very quickly. The 2014 budget 
and 2015 advance appropriations requests demonstrate the 
President's steadfast commitment to our Nation's veterans and 
you all as well. I thank the Members for your resolute 
commitment to our veterans as well, for the budgets that we 
have worked together, and I seek your support on these 
requests.
    The latest generation of veterans is enrolling in VA at a 
higher rate than previous generations. Sixty-two percent of 
those who deployed in support of operations in Afghanistan and 
Iraq have used at least one VA benefit or service. VA's 
requirements are expected to continue growing for years to 
come. Our plans and resources must be robust enough to care for 
them all.
    The President's 2014 budget for VA requests $152.7 billion; 
$66.5 billion in discretionary funding and $86.1 billion in 
mandatory funding, an increase of $2.7 billion in the 
discretionary account, about 4.3 percent above the 2013 level.
    Mr. Chairman, this is a strong budget, which enables us to 
continue building momentum for delivering on three promises we 
made nearly 4 years ago now. The first was to increase 
veterans' access to VA's benefits and services.
    The second was to go after the disability claims backlog, 
something that has been building for decades. We committed to 
ending it in 2015, and we put together a robust plan. We are in 
execution of it, still targeted on 2015.
    And the third promise was to end veterans' homelessness in 
this country, this rich and powerful country, and we targeted 
2015 for accomplishing that.
    These were bold and ambitious goals then. They remain bold 
and ambitious goals today, because veterans deserve a VA that 
advocates for them and then goes and fights and puts resources 
behind its promises.
    Access. Of the roughly 22 million living veterans in the 
country today, more than 11 million now receive at least one VA 
benefit or service from VA, an increase of over a million 
veterans in the last 4 years. We have achieved this by opening 
new facilities, renovating others; increasing investments in 
telehealth and telemedicine; sending mobile clinics and vet 
centers to remote areas where veterans live; and using every 
means available, including social media, to connect more 
veterans to VA. Increasing access is a success story for VA.
    Backlog. I hear the comments of the members of this 
committee. Too many veterans wait too long to receive benefits 
they deserve. There is no question about that. We know this is 
unacceptable, it is unacceptable to me, and no one wants to 
turn this situation around more than this Secretary, more than 
Secretary Hickey, or more than the workers of VBA, 52 percent 
of whom are veterans themselves. They have an interest in this. 
We are resolved to eliminate the claims backlog in 2015, not 
just reduce it, end it, when claims will be processed at 125 
days or less--that is our 2015 measure of success--at a 98 
percent accuracy level.
    Our efforts mandate investments in VBA's people, processes 
and technology. And so very quickly, people. More than 2,300 
claims processes have completed training to improve the quality 
and productivity of claims decisions. More are being trained, 
and VBA's new employees now complete more claims per day than 
their predecessors.
    Processes. Use of disability benefits questionnaires, or 
what we call DBQs, are online forms for submitting medical 
evidence, that have dropped average processing times of medical 
claims and improved accuracy. There are now three lanes for 
processing claims: An express lane for those that will 
predictably take less time; a special operations lane, for the 
unusual cases or those requiring special handling; and then a 
core lane for the remainder, which are the majority of claims.
    Now, technology is critical to this process as well; 
people, process and technology. Technology is critical to 
ending the backlog. Our paperless processing system, the 
Veterans Benefits Management System, VBMS, will be faster, 
improve access, drive automation, and reduce variance. Thirty-
six regional offices today are using VBMS. We are targeted to 
complete the fielding of VBMS by the end of this year. All 56 
will have it, and we are pulling that fielding plan as far to 
the left as we can.
    Finally, homelessness. The last of our three priority goals 
has been to end veteran homelessness in 2015. Since 2009, we 
have reduced the estimated number of homeless veterans by more 
than 17 percent. The latest available estimate from January 
2012 is 62,600. There is more work to be done here, but we have 
mobilized a national program that reaches into communities all 
across the country. Prevention of veterans' homelessness will 
be the follow-on main effort. Right now it is rescue and 
getting people off the streets. It must be accompanied with a 
prevention program that keeps more veterans from ending up 
there.
    So, finally, Mr. Chairman, we are committed to the 
responsible use of the resources provided by the Congress. 
Again, thank you for this opportunity to appear here today. I 
regret the lateness of the submission of our budget, but I 
thank you for your support of veterans and of our request.
    Mr. Culberson. Thank you, Mr. Secretary.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Culberson. Mr. Secretary, in the interest of time, I 
will keep my questions fairly short and to the point in order 
to give everyone a chance to visit with you before the vote 
occurs.

                           PROCESSING CLAIMS

    The number of claims being submitted have increased every 
year. The new automated system is still not operating 
nationwide. You have been working on this for years, promised 
us for years that this would be resolved. You say you are still 
on target to hit that 2015 deadline, but the number of 
completed claims continues to fall below projections. The 
average number of days it takes to complete a claim continues 
to grow, and accuracy levels are still below all the targets 
that you have set.
    What is the VA doing differently that would enable the 
community to believe that you can meet your goal of no claim 
taking longer than 125 days and claims determination being 
accurate in 98 percent of cases?
    Secretary Shinseki. Mr. Chairman, let me just describe what 
we have been about, which is a robust plan. Congress has been 
very supportive, and we are executing that plan as we speak.
    Now, if we can think back 4 years ago, our system was paper 
because we received paper. Everything we received from DOD is 
in paper. The records that Congresswoman Lowey demonstrated in 
Winston-Salem, my understanding is today those records have 
been cleared up. But needless to say, those are records that 
follow members around their tour in the military, and that is 
what we receive for processing. This is what we are trying to 
change, this juggernaut of paper that comes our way. Veterans 
submit their claims in paper, usually accompanied by some of 
those records as well.
    So, we have to change that. We have hired more claims 
processors throughout the years, and still the number of 
claims, because after over a decade of war, continues to grow. 
We have to change our approach here and what we have developed 
is a movement of automation. In order to move to automation, we 
have to create an automation tool that others can send 
electrons to. DOD has agreed to do this. By the end of this 
year, we will be receiving electrons, that is the commitment 
from DOD. All that paper that has been coming our way is 
beginning to change.
    We have over 800,000 claims in paper today. The ones that 
we have begun processing will continue in paper and finish out. 
The ones that we think are able to be scanned and put into the 
database are being scanned. That is a work in progress. What we 
have been about for the last 2 years is developing an 
automation tool that has the capability and the power to make 
this transition. We have done that. That program is called 
VBMS. We are fielding it today. We are in 36 of the 56 regional 
offices.
    As I said, we had set aside this entire year to field 56 
locations. My guess is we are going to be finished early, and 
when we have that system in place, an automation tool and DOD 
feeding us electrons, veterans will have an ability to file 
online, provide us their claims electronically, and scan in the 
documents that they would like to submit for consideration. We 
are in the process of creating a major transformation.

                       MEETING THE 2015 DEADLINE

    Mr. Culberson. Yes, sir. I appreciate that, and my 
question, though, is what is the VA doing differently or new 
that would convince the Congress that you can meet this 2015 
deadline? With all due respect, sir, that is basically the same 
things we have heard for the last many years. I have to say, 
based on the performance so far and the continuing increase in 
the amount of time it takes to handle a claim, the continuing 
problems, the tremendous increase in funding that we have given 
you, and all the support and love and encouragement we can give 
you, and we still haven't seen the changes, I can now see why 
some of my colleagues have said that the VA should be required 
to simply turn claims processing over to the private sector 
with a performance-based contract that would make funding 
contingent on speed and accuracy metrics. Under this scenario, 
current VA claims processors would have to compete for their 
job with the private sector, with a private company that would 
win the competition to process claims.
    The goal here is to serve veterans. The goal is to ensure 
that our veterans are given the support and the help that they 
have earned to their service to the country. And the work is so 
vital and so important, I just don't see how we can simply 
continue the way we have. In fact, based on everything I have 
seen and heard in the time that Chairman Rogers has entrusted 
me with this extraordinary privilege of being the chairman of 
this subcommittee, I just haven't seen much change.

                 TURNING BACKLOG OVER TO PRIVATE SECTOR

    So, why shouldn't the Congress go ahead and change the law 
that by 2015, in 20 months; if you haven't met your deadline, 
create a situation where the private sector can step in and 
handle this for you, and those folks that are not doing their 
job with the VA, just simply turn over the responsibilities to 
a private company to make sure that our veterans are given the 
benefits that they have earned?
    Secretary Shinseki. Fair enough, Mr. Chairman. I think what 
I have described is a robust plan here to accomplish what we 
all want, which is no veteran should have to wait for any 
claim, that is for disabilities that they have earned and 
incurred. I think we are all committed to that.
    This is an ambitious plan. At the same time that we began 
this transition of VA, DOD and all the inputs, we also added to 
our workload to take care of some unfinished business. Vietnam 
veterans and Agent Orange, for 47 years have not been 
recognized for three key diseases. We added that to the 
workload, knowing that it was going to increase inventory and 
slow the backlog or increase the backlog. We testified to that 
2 to 3 years ago, and we said that this was the right thing to 
do, and we were going to do it. To accept this increase, we 
were going to work through this and develop an automation tool, 
VBMS. It is in the process of being delivered.
    We also, for 20 years have not acknowledged Gulf War 
illness for veterans who served in Desert Storm One. There were 
a variety of indicators that they had healthcare issues, never 
recognized, but 3 years ago we said we were going to do 
something about it. For the first time ever, we don't have a 
clear cause of these maladies.
    Mr. Culberson. Yes, sir.
    Secretary Shinseki. In the past we have always said we are 
going to find a cause before we grant. We decided there were 
nine diseases that had a sufficient enough population for us to 
say we don't know what caused it, but something obviously 
happened. We will treat those symptoms and then deal with the 
disability claims.

                CONGRESS LETTING PRIVATE SECTOR COMPETE

    Mr. Culberson. Yes, sir. My question was, though, why 
shouldn't we in Congress go ahead and create a mechanism and 
let the private sector compete for this. In 20 months, your 
deadline is 2015, if you can't meet it, we will go ahead and 
let the private sector come in and step up to the plate.
    And then I will turn it over to Mr. Bishop.
    Secretary Shinseki. Well, I think we have indicators now 
that the plans we have in place have the results we are 
beginning to see to bear fruit, and this will continue to show 
over 2013 and into 2014. I remain confident that 2015 is a good 
target for us.
    We have done employee training, and more claims per day are 
being completed, a 30 percent increase in accuracy. We have, as 
I said, segmented lanes, where we have a fast lane and a 
special lane and a lane for the vast majority of claims. 
Productivity has already shown a 10 percent increase in offices 
that have gone this route.
    Disability claims questionnaires have speeded up processing 
and increased our production by 60,000 claims. We are moving to 
a rules-based engine for the VBMS program that we are currently 
fielding. As soon as we are done fielding it, we are looking 
for the opportunity to insert a rule-based device, like a 
TurboTax capability, where the right data fills the blocks, and 
decisions are made, and checks are cut.
    Fifty-two calculators for fifteen disability body systems 
have been reviewed and are integrated into VBMS, and we expect 
that accuracy alone will rise to 92 percent.
    You know, I think we have a good plan in place. It is a 
robust plan. We have been building it for 2 years now. We have 
just begun fielding VBMS 6 months ago, and we are in 36 
locations.
    Mr. Culberson. Well, you know how strongly we support you. 
The Committee and the Congress have given you everything you 
have asked for to do what has to be done so that our veterans 
who have earned these benefits can receive them in a timely 
fashion. And I tell you, if it doesn't happen, I think we 
should look at a radical restructuring and some changes to make 
sure those men and women get what they have earned.
    Secretary Shinseki. Mr. Chairman.
    Mr. Culberson. We really got to rethink this.
    Secretary Shinseki. Well, Mr. Chairman, I thank you----
    Mr. Culberson. Do something different.
    Secretary Shinseki [continuing]. For the support of the 
Congress. I mean, it has been crucial.

                            CLAIMS INVENTORY

    But just so we are not sitting here thinking there is 
nothing happening, we have averaged a million claims decisions 
going out the door for the last 4 years, so when you are 
talking about a claims inventory of about 870,000 claims.
    The backlog is clearly larger than it needs to be at 
roughly 600,000, but when you are putting a million claims out 
the door with an inventory of 870,000 claims, there is work 
being done.
    Mr. Culberson. Thank you, sir.
    Secretary Shinseki. It is not a static number of claims.
    Mr. Culberson. I need to move to Mr. Bishop.
    Mr. Bishop.
    Mr. Bishop. Thank you very much.
    Mr. Secretary, while I share the chairman's frustration, I 
do have some serious reticence about suggesting that 
contractors could do the work. Our experience with DOD and with 
most of the agencies where we have utilized contractors is that 
contractors have cost significantly more to the government, to 
the taxpayers to produce the results that were done by the 
civil service employees. That has been documented particularly 
in the Department of Defense. So I am not so sure that that 
would be the stick that we would hold over the Department's 
head, but we are very, very frustrated, and we expect that 
something has to be done.
    Another item from your testimony that caught my attention, 
which I guess just highlights the challenges that you face, is 
that the average number of claimed conditions for recently 
separated servicemembers, which is now in the 12 to 16 range, 
is an increase in the number of disabilities claimed by 
veterans of earlier years.

                          CLAIMS VERIFICATION

    Do claims processors have to have all the claimed 
conditions verified before the claim can be processed, or as 
conditions are verified, the claim for that condition approved?
    Secretary Shinseki. I think the increase in the number of 
issues per claim is reflective of the complexity of the 
operation. The fact that we have improved battlefield medicine, 
with evacuations, we have many, many more surviving the 
injuries that have traditionally been associated with warfare, 
and therefore, folks who return to us have more complex 
injuries and more issues to be dealt with.
    Mr. Bishop. So that means that it takes longer for the 
claim to actually be developed, in the process, and you can 
submit it for the record or get back with us, but I am 
interested to know whether or not, if they have these multiple 
issues, if all of those issues have to be developed in order 
for any of the claims to be processed.
    Secretary Shinseki. It takes longer. I think----
    Mr. Bishop. Wait until the end to rule on the claim until 
they have dealt with all 12 to 16 different issues as opposed 
to some that are clear and some that are not so clear?
    Secretary Shinseki. What we do is if there are that many 
issues with a claim, we will decide those that are clearly 
resolvable, and make those decisions, and begin to address the 
disability claims payments. But by the current rules, if you 
take care of 14 of the 16, and the veteran is being cared for 
and being compensated, because those 2 remaining issues are 
still unresolved, the claim remains open and it counts as a 
backlog claim, even though you have completed a good portion of 
the work. I can provide a greater detail for the record.
    [The information follows:]

    VA's claims adjudication manual authorizes claims personnel 
to make an intermediate rating decision if the record contains 
sufficient evidence to grant any contention at issue, including 
service connection at a non-compensable level. (M21-1MR 
III.iv.6.A.1.a) Exercising this authority ensures that Veterans 
are afforded entitlement to benefits at the earliest possible 
date; however, issuing this partial decision does not resolve 
the pending claim. Such claims remain pending until all 
contentions associated with it are developed and decided back 
to the original date of claim. Thus, if the claim has been 
pending more than 125 days, it would still be considered part 
of the backlog inventory.

    Mr. Bishop. Thank you. That is some explanation, but not 
satisfaction for why you are experiencing the challenges that 
you are.

                        LINK BETWEEN VA AND DOD

    I want to get back to the integrated electronic health 
records. Your Department and the Department of Defense were 
directed repeatedly by Congress to develop an electronic health 
record system that would follow a servicemember from enlistment 
to the time that they exited, But because of the problems that 
you and Secretary Panetta encountered, you decided to alter 
that original goal of the iEHR and to focus on making the 
systems more interoperable.
    VistA will be your core system. Have you been given any 
indication of what core system the Department of Defense is 
going to choose? And with Secretary Hagel being familiar with 
the VistA system, given his time at the VA, have you 
recommended the VistA system to DOD, and what effect would 
having the same system have on your claim backlog?

                              GOAL OF IEHR

    And I noticed that in your 2014 budget request, you 
included $251 million for the iEHR. Can you explain what that 
money is going to be used for since you have altered the 
original goal for the iEHR?
    Secretary Shinseki. Certainly, Congressman. This has been 
an ongoing discussion now between Secretary of Defense and 
Secretary of VA for at least 4 years. Let me just say, I spent 
38 years in uniform, and in those 38 years I knew there was a 
VA, but I didn't know what the VA did, and so, frankly, my 
whole focus and my time in DOD was preparing to go on mission. 
That is the mission they should be focused on.
    Mr. Bishop. And taking care of soldiers.
    Secretary Shinseki. Our responsibility then is, between the 
Departments, to ensure that we are being supportive of DOD's 
responsibilities here. As I have said before in testimony, very 
little of what we work on in VA originates here; most of what 
we work on originates in DOD, and that is not a negative. That 
reminds us of our important link between VA and DOD. It is not 
a link I understood for 38 years until I came here, and so the 
earliest discussions with Secretary Gates was this effort to 
change the relationship, and that has been under way between 
the two Secretaries.
    The cultures in the two Departments are a little different 
because of their national security missions, but we have worked 
very hard in the last 4 years to bring the two Departments 
together, and one of the signature efforts has been this 
electronic health record. We agreed in the past that that 
electronic health record would have certain key words 
associated with it, single, joint, common, integrated 
electronic health record, all of that code, to ensure that we 
stayed on a very focused approach to resolving this issue. We 
added to it open in architecture, nonproprietary in design, and 
all of that was, again, to focus us on a solution that would be 
a single record that we would both share.
    Mr. Bishop. DOD agreed with the nonproprietary?
    Secretary Shinseki. That definition has been agreed to, and 
my discussions with Secretary Hagel shortly after his arrival 
was he wanted some time to get into his own Department, figure 
out how that translated, make sure it had the right structure 
in place, and I believe that is what you are receiving 
testimony about. He has decided to make some adjustments to the 
structure, and then he and I will meet. I look forward to that.

                   DIFFERENCES BETWEEN DOD-VA SYSTEMS

    Mr. Bishop. Your system is not proprietary, but the DOD 
system in the past is proprietary. The government owns your 
system.
    Secretary Shinseki. Yes.
    Mr. Bishop. We have full control of it. But the one that is 
utilized by the DOD is proprietary, and contractors----
    Secretary Shinseki. I am not quite as familiar with DOD's 
current contract, but I believe that is correct. That it is a 
contractor-provided system. Ours is government-owned, 
government-operated program and, in fact, we have taken our 
code and put it into the open architecture so that anyone who 
wants to has access to it and can use it.
    I believe between DOD and VA, we have the opportunity to 
create an electronic health record that has these dimensions to 
it that will benefit many others in this country who couldn't 
afford to do the kind of research development that we do. We 
both look forward to being able to provide that.
    Mr. Bishop. Thank you, Mr. Secretary.
    Mr. Culberson. Thank you, Mr. Bishop.
    Chairman Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    On the claims backlog, I know now that you are moving 
rapidly to digitalize the claims, which I think is the only way 
to go. That allows you to move these cases so much quicker, and 
I salute you for that.
    On the electronic health records, since 2008, between DOD 
and the VA, we have spent about $537 million to create this 
integrated electronic health record with very little to show 
for it. The effort was made to combine the two into one. That 
apparently has fallen by the boards, and now apparently we are 
trying to integrate the two systems to make them interoperable. 
Am I generally correct in that statement?
    Secretary Shinseki. Mr. Chairman, we have two records 
today.
    Mr. Rogers. Yes.
    Secretary Shinseki. We have created what I call a GUI, a 
graphical user interface, that allows a physician to pull data 
out of each system. If I am seeing a veteran, and I want to see 
what is in his military record, I can reach into DOD's database 
and get that information.
    It is awkward, it is slow, but it is interoperable, and you 
can make it better, but it isn't where we want to go. We are 
looking at a single electronic record that is seamless between 
us. I just think in the long run that serves both Departments, 
and I look forward to my discussions with Secretary Hagel.
    We don't want to end up, again, with a decision that has 
two records that in time get developed in ways that no longer 
talk to each other, because we know that the speed at which 
healthcare improvements are occurring, we are going to want to 
add capabilities, and we need to do this in a seamless way so 
that each of us have a record that reflects those improvements.
    Mr. Rogers. Well, you and have I shared this information 
before about the young man that came to see me a few years ago, 
a veteran from Iraq that had been in an IED explosion to his 
head and face. It ruined one eye, but the other eye was 
reasonably well, but then it began to deteriorate after he came 
home. He went to the Lexington VA hospital. They were unable to 
operate, to save this eye, because they could not get the 
records of the DOD when he was first treated after being 
injured, and they were afraid to operate again here in the head 
area because they just didn't know what they were facing. As a 
consequence, he lost the second eye.
    That is unforgivable. I know you and I have talked about 
this before, and there must be a lot of cases just like that 
that are happening today. We simply can't violate the honor 
that our soldiers have given to us by that kind of ineptitude. 
Tell me that that won't happen today.
    Secretary Shinseki. Well, I will first agree with you, Mr. 
Chairman, that that is a horrible reflection of two Departments 
being unable to provide the information where we can deliver 
health care. We are working; as I say, today we are better than 
we were 3 years ago. We now have this ability to pull out of 
each of our databases. It isn't good enough. We are headed to a 
seamless system where we can share that information back and 
forth across our boundaries. There are active duty soldiers who 
are treated in VA facilities, and then they go back to 
Department of Defense service. We have to be seamless here, and 
this is what we are working towards, your statement, Mr. 
Chairman, about that should never happen again.
    Mr. Rogers. Well, this has human consequences in what we 
are talking about. It is not just electronic information.
    Let me touch briefly, Mr. Chairman, if I have the time----
    Mr. Culberson. Certainly.

                        PRESCRIPTION DRUG ABUSE

    Mr. Rogers [continuing]. On another problem that really 
bothers me over the years, and that is prescription drug abuse. 
I know you are working in this arena very, very much.
    One of the things that I think we could do is to require 
mandatory physician training on the dangers of prescription 
overuse. The rate of prescriptions for medical problems in the 
military is skyrocketing. After the 2010 report of the Army's, 
``Pain Management Task Force,'' DOD announced plans to expand 
drug testing for unauthorized prescription drugs, and we have 
seen a huge increase in the reported symptoms of PTSD strongly 
associated with substance abuse and dependence.
    The pain reliever prescriptions written by military 
physicians quadrupled between 2001 and 2009. I know we have had 
the combat-related injuries that require these medicines, and I 
know that it is difficult for us to judge whether or not the 
problem is solely related to an increase in the number of 
injuries received in warfare, but having even included that in 
our calculations, we are seeing a huge increase in the number 
of overdoses of these medicines.
    I appreciate your efforts to bring the VA online with our 
State-run prescription drug abuse monitoring programs. Now 48 
States have those systems in place, and you have now linked up 
VA with those monitoring programs, which I think is a huge step 
forward. I am told that currently, one in six vets returning 
from war zones report symptoms of PTSD, one in six. I am sure 
you share my fear that as these wars wind down and our men come 
home, men and women, we could be faced with a very serious 
problem even beyond what we have today.

                     SCREENING FOR SUBSTANCE ABUSE

    A 2012 Institute of Medicine report prepared for DOD 
recommended that we better prepare our military health 
providers to recognize and screen for substance abuse problems. 
Do you think that additional education for our doctors, nurses 
about the risks of these prescription pain killers would be 
helpful, or have we gone there already?
    Secretary Shinseki. Mr. Chairman, I am going to call on Dr. 
Petzel here in a minute. Let me just summarize.
    What you are describing here is an issue that concerns all 
of us, and I would say that in VA we have asked ourselves the 
question about overmedication. But again, all that we talked 
about, an integrated electronic health record that allows us to 
see what is happening in DOD as people transition out, a 
mandatory transition assistance program where everyone leaving 
the military has an opportunity to have an exit physical exam 
so that when they come to us, they come to us because we know 
there are issues to be dealt with. As opposed to discovering 
when someone is in crisis that overmedication or substance 
abuse is an issue.
    The law precluded us from being able to do State monitoring 
before the chairman's leadership here, and with the law we are 
now able to participate. Regulation is in place, and we are in 
the process of executing what we have described as the right 
outcome.
    With that, let me call on Dr. Petzel.
    Dr. Petzel. Thank you, Mr. Secretary.

                            STATE MONITORING

    Mr. Chairman, I also want to add my thanks for the 
legislation that allowed us to do state monitoring. This is an 
important step in getting control of the issue of the overuse 
of opioids, particularly by the veteran community, and avoiding 
the social consequences and the physical consequences of that 
kind of addiction.
    Let me tell you what we are doing in addition to that. In 
terms of the treatment of pain, we have a stepwise pain program 
that begins with the least harmful, the least risky type 
therapy that includes acupuncture, et cetera, and opioids are 
at the very end of that stepwise process. We have educated 
everyone in our medical centers on this, and are working to 
educate our primary care providers, particularly in our 
community-based outpatient clinics, which is where much of this 
problem exists.

                                DATA SET

    The second thing is that we have developed a data set that 
identifies veterans who overuse opioids, and prescribers who 
overprescribe or are outliers in terms of prescribing. That 
information is fed back to each medical center. There is an 
individual who is identified as being responsible for following 
up on each one of those outliers, be it a patient or a 
provider, to see that the issue is addressed with the 
individual provider.
    I would say that there is never enough education about 
these things, so can we do more in terms of education? 
Absolutely, we can.
    Secretary Shinseki. Mr. Chairman, just in closing, I would 
just say that veterans enrolled with or enrolling with VA are 
all surveyed when they come in for their visits, and they are 
interviewed about alcohol use, interviewed about substance 
abuse, about insomnia, about pain and pain management, all of 
this to identify whether or not there is someone in need of 
help.
    Mr. Rogers. Well, we had the problem in the private sector 
outside the military, particularly in my district where 
OxyContin became the killer drug. It is a wonderful drug for 
severe pain, 12-hour release, but when young people learned 
they could crush the pill and shoot it up and get that 12 hours 
in a split second, it was an immediate high and extremely 
addictive.
    We now have required all opioids to have an abuse-deterrent 
feature, meaning that you can't crush it. It is a gummy thing 
that you can't abuse. However, a lot of our doctors, not 
knowing the dangers of OxyContin, began to prescribe them for a 
toe ache or what have you, and we became hooked, and we lost 
thousands of our young people, particularly in my district, and 
it was not isolated to the civilian sector. There were a lot of 
military people, veterans especially.
    So this is something that is deadly. I think it feeds the 
suicide increase rate that we see in the military and with 
veterans. It is related, of course, to PTSD, and I think that 
our veterans are particularly susceptible to overprescription, 
and I would urge you to continue your strong vigilance on the 
problem because it is not going away.
    Secretary Shinseki. Sure.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Chairman. We expect votes 
about 11:45. Ms. Lowey.
    Mrs. Lowey. Thank you very much. Secretary Shinseki, I 
think you have heard our concerns. Frankly, to me, as a 
citizen, putting aside my role as a Congresswoman, it is 
extraordinary that a four-star general and the Secretary of 
Defense could go with such distinction and protect our country, 
but as you said, for 4 years, there have been ongoing 
discussions and we still haven't worked out a seamless 
transition.
    So I do hope that Secretary Hagel could match your efforts 
over at the VA and do what he has to do and get this seamless 
transition, whether it is the same VistA program or another 
one. So I just wish you good luck.

                          PRIVATIZATION ISSUES

    And I want to say, Mr. Chairman, I do have some concerns 
about the privatization issue. I understand the desperation 
among my colleagues, but it is my understanding that 52 percent 
of the claims processors are veterans. And it would also seem 
to me that analyzing the situation, it is not the fault of the 
claim processors, it is the people at the top who can't seem to 
coordinate and get this system in place. And that would be my 
concern about even considering private sector contracts. I want 
to move to a related issue, which is jobs. The unemployment 
rate for younger veterans ages 18 to 24 has been the highest 
among all demographics. The projected drawdown in Afghanistan 
is likely going to exacerbate the situation for our younger 
veterans. If you could share with us what courses of action you 
are taking to tackle this particular issue, and also discuss 
how the $104 million for Transition: GPS, Goals, Plans, 
Success, will help separating servicemembers better prepare for 
their civilian life as they transition. If you could discuss 
the transition, what we are doing to improve this situation, 
that is another area that I think is so unconscionable.

                       UNEMPLOYMENT FOR VETERANS

    I have several friends in the private sector who are 
aggressively working on this, getting corporations to hire 
veterans. But there should be a seamless transition. It should 
start before they become a veteran, before they are separated 
from the service. Can you talk about that, please?
    Secretary Shinseki. Certainly, Congresswoman. We are all 
focused on the issues of unemployment for veterans at large. 
For one thing, we hire veterans. One-third of VA are veterans, 
fully one-third. And we have a goal of moving to 40 percent. 
Whenever we are in discussion with other agency and Department 
partners, hiring veterans is a discussion as well. We have 
partnered with the Joining Forces initiative that is led out of 
the White House by the First Lady and Dr. Biden. Their efforts 
have been to link in with the private sector and get 
corporations to provide jobs. The goal was 100,000 jobs for 
service spouses and veterans by the end of 2013. That goal was 
met in 2012. And my understanding is those corporations have 
committed now to increasing to 250,000 jobs.

                              HIRING FAIRS

    So a lot of momentum there. In VA we conduct hiring fairs. 
We partner with the Chamber of Commerce. The Chamber's Hiring 
Our Heroes campaign has conducted in excess of 400 hiring fairs 
around the country. We on our own, besides partnering with the 
Chamber, have put on three fairs with over one hiring fair a 
year. Ours is a little more deliberate. When a veteran shows 
up, we put them through a resume preparation program, which is 
automated. They describe what they did in the military, and it 
churns out, in business language, a resume. They get to edit 
it, and then we run it through the system, and they have their 
own resume to be used for whatever interviews they conduct 
later. On-site we also have seasoned interviewers who have 
interviewed for hiring. The veterans go through a training 
program, a process to rehearse what an interview is about. What 
does the interviewer want? What do you want out of the 
interview? They get to go through that training as many times 
as they want. Then they go onto the floor, where the real job 
interviews are, and they go for on the record.
    They go to interview one, and if they are not satisfied 
they did as best as they could, they can go back to the 
training process. All of it intended for them to leave that day 
with a job, if that is possible. We have employers on-site. But 
more importantly, they leave with a resume and skills to be 
able to do interviews on their own.
    Mrs. Lowey. Thank you, Mr. Chairman. Thank you Mr. 
Secretary and good luck.
    Mr. Culberson. Thank you, Ms. Lowey. Judge Carter.
    Mr. Carter. Thank you, Mr. Chairman. Mr. Secretary 
Shinseki, General, thank you for being here. Thank you all of 
you for what you do for our veterans. We are frustrated, and we 
are talking about frustrations that are significant to me. I 
came to Congress in 2002. When I came to Congress, there were 
certain things that we were demanding needed to be fixed 
immediately with the military. And the number one was the two 
health plans being able to function as one while communicating 
together. And it was always said VA had the good one, DOD had a 
bad one, we had to fix them.
    I have been in Congress 10 years. I have heard exactly the 
same conversation today that I heard 10 years ago, with 
variations. That is very frustrating. Secondly, you are talking 
about having a third of the people in your agency are veterans. 
One of the things that has been a great joy in my life is to 
get to know the American soldier. And when I say soldier, I 
mean warrior. But my reference is Fort Hood, although we have 
Air Force contingency at Fort Hood also. And one of the things 
that is a sense of pride for all Americans is how well we have 
instilled in our soldier, in our warrior, how the mission is 
all important, and every soldier has a part of that mission, 
and that we leave none of our warriors behind no matter what. 
And American soldiers die every day meeting that obligation.
    One of the frustrating things, General, that bothers me a 
lot, and I know it does you too, is we have veterans today that 
think the Veterans Administration is leaving them behind. They 
are being left on that battlefield. And they are so proud. Talk 
to veterans groups at home and they tell you that we have still 
got--the military still cares about us. And they are proud of 
having a veterans department that is theirs. Theirs. That is 
why you don't get veterans talking about give me a voucher to 
go to some other hospital. No. I want to be with my guys. That 
is their whole world.
    When we fail those veterans and they felt like they are 
left on the battlefield, we destroy something that is very 
important to our country and we have instilled in these people. 
That concerns me as much as anything we are doing here, is that 
the average soldier--and I hear it from a lot of veterans 
today, a whole lot--that almost with tears in their eyes, I 
don't think I am ever going to get this claim finished. I don't 
think I am ever going to get my life settled. I go and I bang 
my head against a stone wall and nothing happens. I know the 
frustration. I am not military trained. I wish I had been. But 
I want to tell you, one of the things that you as a general 
know, most of these people may be ex-military, is when you plan 
to complete a mission, whether it be a small engagement or a 
very large scale engagement, you start with certain assumptions 
of things that need to be accomplished, you get as much 
intelligence on how to accomplish it as you can, then the 
commander instills in those below him what the ultimate 
objective is so you know we are all on the same team, we are 
going to take that hill, we are going to do this, whatever it 
takes, whatever the project is. As you proceed, you run into 
things that don't fit what you thought was there. There is 
always that outside influence, that outside thing that makes 
change. And what the Army and the military does so well for our 
soldiers is we train them to adjust, keeping their eye on the 
mission. You know this. I am not teaching you anything, you 
teach it. I know you have.
    I think the VA has got so much of a relationship with the 
veterans, that is the way they have got to get this thing 
fixed, all these things fixed. It is like you take a 
functioning mission-accomplishing operation and you turn them 
into bureaucrats, which is let me sit and take care of my 
little niche and let the rest of the world pass me by. I don't 
know the solution. I think you do. I have great confidence in 
you as a leader. I have told you that more than once since we 
have met, because I knew your reputation from Fort Hood, which 
is you are very highly respected at Fort Hood. And I never hear 
a bad word about you. Everybody says he is a great general, he 
is a great man.
    And I carry that with me. But somehow the VA has got to 
start performing its missions, and we have got to do what we 
are talking about here today. And it is a shame that an Army 
that can show the world, a military that can show the world 
that they can accomplish whatever mission they can do, we take 
them out and put them in their organization and we fail in our 
missions.
    I will tell you I am embarrassed that the great place, 
which you know what I am talking about, Fort Hood, we call it 
the great place, has the worst VA record in the country. I am 
speaking of Waco, they are number one in backlog, at least they 
were unless you all have fixed it, and I would be very blessed 
to learn if you have. But we made the front page of the papers, 
the number one, worst VA facility in the country for backlog 
was the one that is related to Fort Hood. That is not 
acceptable for those of us who like to say that we produced a 
great place for warriors. And we want to have them have a great 
place when they go to the VA.
    I personally will volunteer, if it will help, to chew butt 
once a month, okay, at the VA if you want me to. I personally 
will--I did this with the Highway Department Because I couldn't 
get them to get off their butt, and I will do it with the VA. I 
am an old trial judge. I know how to do that pretty well.
    And I will. We will have a meeting every day, we will see 
what has been done, and tell me why not, and what are you going 
to change to make it happen? That is not a question; that is a 
statement. I want to know why we haven't made those adjustments 
when we have run into these things. And how can we start making 
those adjustments and having trained people that say I see the 
goal, I see the mission, and I am going to do this mission? If 
I run into a snag, I am stepping over here and going past it.
    Secretary Shinseki. May I just give a response?
    Mr. Carter. Yes, sir, please.
    Secretary Shinseki. I would say there is no daylight 
between us, Congressman. I mean, we want the same things. And 
what you describe is my experience in uniform. Part of the 
culture change in VA is having the opportunity to be able to 
put some of those disciplines and behaviors in place. When I 
talk about training our workforce, it is very much at being 
able to hold people accountable. If you never train them to the 
standard, it is hard to hold them accountable because they have 
no way of getting there. So first a requirement is to establish 
a standard and train those folks to it. That is underway, and 
has been underway for some time. The other is to provide them 
the tools they have never had. This VBMS automation tool is 
powerful. And it is going to change the way we process claims.
    Why do I know this? Because in 2009, when I arrived, 
Congress gifted our veterans with something called the 9/11 GI 
Bill. We didn't have a tool for that either. Congress said--I 
arrived in January, in August the program begins. I think you 
recall that first semester was pretty tough. It was all done by 
paper and pencil because we didn't have a tool. Well, that is 
what is going on in the disability claims program. At the same 
time we were doing paper and pencil enrollments, we began 
developing an automation tool for the 9/11 GI Bill. That fall 
semester, we struggled to get 173,000 youngsters enrolled.
    Today, we have over 900,000 enrolled because of this 
automation tool we developed. We learned a lot going through 
that process. That learning translates into how we are fielding 
and developing this Veterans Benefits Management System, VBMS, 
that we have created for our disability claims processing. Same 
approach, to be incremental, and make sure it works, take the 
next piece, make sure it works, take the next piece. It sounds 
like a long and drawn-out process because it is incremental, 
rather than taking a big bite and have something fail and you 
don't know what caused it. This way we get to see what the 
issues are, fix them, and then keep moving on. In the long run, 
it is faster to do it that way.
    I would say 6 months into it, we are at 36 of 56 regional 
offices. We will be completed with fielding VBMS, and then we 
will have a way of measuring improved performance. Waco had a 
good performance record. And so when we made the decision on 
Agent Orange, it was one of the places that we went to and 
asked them to do extra work. We saddled it with an additional 
workload that other regional offices did not receive. Frankly, 
we had to work through it. It took us 2 years to get all those 
Agent Orange claims through the system. Some of their claims 
aged as well. We understood that was going to happen, and we 
are now in the process of bringing everyone back online.
    Mr. Carter. Well, thank you. And I have absolute confidence 
in you, Mr. Secretary, because I know your track record. I hope 
that you will help instill this in the workers at the VA--and I 
go out there two, three times a year, and they are great, great 
people. But let's don't let our soldiers lose their warrior 
ethos, their belief that our country cares about them, and will 
always get them off that battlefield alive. And if not, if they 
are not allowed, their body will go home, and won't be left on 
the battlefield. It means an awful lot to the future of this 
country that we keep that going. And I don't want us to be the 
cause--our VA to be the cause of them losing that faith in us. 
God bless you. I will help. You let me know. I will help.
    Secretary Shinseki. I will. That very much resonates with 
me, Congressman. And let me just say this budget, just to 
demonstrate the amount of energy we are putting into it, this 
budget is about Veterans Benefits Administration, we have 
increased their budget by 13.6 percent, and it is about the IT 
tools that enable them to have those soldiers perform the way 
you and I recognize. A 10.8 percent increase to information 
technology in this budget. That is what we need to get to 2015. 
And without that, we would be challenged.
    Mr. Carter. Thank you.
    Mr. Culberson. Thank you, Judge. Mr. Secretary, I am of 
course, struck with the judge's comments. I couldn't agree with 
them more. And the VA's customers are our veterans who have 
served the country. And I always am struck when I visit, if you 
think about it just very quickly before I recognize Mr. Farr, 
and they just started on a series of six votes, and obviously 
we will come back after the end of those votes because members 
have a lot of questions, and we appreciate your patience. There 
will be a six votes, with a motion to recommit in the middle. 
So it is going to be an extended series of votes.

                            CUSTOMER SERVICE

    Just very, very quickly, while the members are here, and I 
would like for you to think about it and I think all the 
members here, when we visit at home with successful businesses 
in our districts, talk to the CEOs, the senior executives in 
those companies are always focused on the customer. They always 
talk to us about what they are doing to meet the needs of their 
customers. And you never hear any discussion about what they 
are doing in the top office, or what they are doing in 
management, or that they have got more money thrown at 
different sectors of the company. All you hear about is the 
customer. And I have to say in 3 years I have had the privilege 
of severing on this subcommittee I rarely ever hear any 
discussion of the customer from the VA's top leadership.
    And I think that may be one of the--I mean, obviously you 
are concerned about it. But I mean if I just could encourage 
you just shift your mind-set so you are looking at the VA--the 
military works from the top down, the VA ought to work from the 
bottom up. And just think about everything that you do in terms 
of the individual customer, the individual veteran, and what 
you can do to make sure that, as Judge Carter has said, that 
they don't feel left behind. I think it would help a lot. It 
certainly helps in the private sector to stay focused on the 
customer, and it would help the VA to stay focused on the 
customer.
    Secretary Shinseki. May I respond?
    Mr. Culberson. Yes, sir.
    Secretary Shinseki. I would say I appreciate those 
comments. And if in 4 years you have not heard me mention 
veterans----

                         MIND-SET OF THE AGENCY

    Mr. Culberson. Oh, no, I have heard you mention them. But I 
just think in terms of mind-set, sir. No, of course I know you 
are committed. It is not my intent to demean that. I just think 
in terms of mind-set of the agency as a whole, the mind-set of 
the private sector is always focused on the customer and how 
can we meet their needs. And you just don't see that, as I 
think you should, particularly at the VA.
    Secretary Shinseki. I would say that is our only mission, 
Mr. Chairman. I mean if you look at any of our buildings, 
emblazoned on them is the words of Abraham Lincoln, to care for 
him who have borne the battle.
    Mr. Culberson. Certainly. I know of your commitment, sir. 
It is just that there really is a different mind-set when you 
listen to the private sector focused on customers with the 
Federal Government. I appreciate all that you do. I recognize 
Mr. Farr. And we will, of course, come back. Let's go until 
about 5 minutes left in the vote, and then we will recess and 
come back after the votes. Thank you.
    Mr. Farr. Well, first of all, I have to say that my 
constituents complain a lot more about banks than they do about 
Department of Veterans Affairs. And they think they get a much 
better treatment. People respond when they ask questions at the 
Department of Veterans Affairs, and they don't when their house 
is being foreclosed on and their mortgages are upside down and 
they can't qualify for other loans.
    So I think if the private sector is the chairman's example 
that pays attention to customers, it certainly is not in the 
financial services industry. And I want to personally 
compliment you. I don't think any Secretary has done a better 
job. I mean you, not only as you told about initiating the GI 
bill, but you have been the first Secretary to really focus on 
how to eliminate homelessness of veterans. And that was one of 
the pledges of this committee many years ago, that we were 
going to leave no vet behind, and we were going to try get the 
Department to really drill down and do work with the homeless. 
And you have led the effort on that. You have expanded the 
disability category. No wonder we have so many files. I mean, I 
am as upset as everybody else about the backlog. But remember, 
we also gave so many more opportunities for veterans to file. 
You opened up the disability claims, and you now have veterans 
filing with five, six, seven more claims per filing issues than 
previous veterans did.
    I can understand what created this incredible rush and 
backlog. And hopefully we will, with your leadership and the 
money that we appropriate, be able to make progress on 
servicing these claims. I also think the Department of Defense 
should put some money into it because they are the ones that 
cause the problems. And I am furious at the fact that they can 
walk away from a lot of the responsibilities, including paying 
for making plans work and health care plans being 
interchangeable. Having said that, I have been really drilling 
down lately just trying to work out the local and State 
Veterans Affairs offices. And I realize that what is happening 
in our States is they take for granted all the money that goes 
to the States for veterans. And you give these administrative 
moneys to them, it never gets the kind of scrutiny that it does 
here because it is not a State responsibility, they are not 
paying for it out of State tax dollars or local tax dollars. 
And so the review, when we were in the legislature and we were 
in local government, is, oh, that is a Federal program that 
just happens to be housed in our county. And let's move onto 
something where we really have some authorities and some money 
in the game. And I think that you need to use your carrots with 
these States and local governments to shape them up to be as 
competent as you would like to see in your own department. 
Because I think there is a lot of incompetency and a lot of 
misinformation in State and local veterans departments.

                        STATE-FUNDED CEMETERIES

    The other thing that I am concerned about is, as we have in 
California, is that the State doesn't want to pick up the 
responsibility for a State-funded cemetery. You and I have 
discussed this many times. And I would just like to refresh the 
Committee's memory: In fiscal year 2013 CR, we had language in 
there requiring the National Cemetery Administration to submit 
a strategy report to the committee on how the VA plans to meet 
its burial needs for veterans in rural areas. I mean, we do 
have a lot of veterans clinics and veterans hospitals, but 
sometimes they are so far away that the veteran can't take 
advantage of them. Cemeteries are similar. And what this report 
was supposed to do is to include a time frame for 
implementation of five new burial sites in rural locations. And 
I just wondered what the status of that report is.
    I am also interested in whether that report has included 
Fort Ord, which is still in Federal hands. I also would like to 
urge you again, with staff, to review this internal policy of 
requiring that anything within a 75-mile radius, if there is 
space available you can't expand. I mean, you essentially 
waived that 75-mile radius when you proposed creating the urban 
columbarium program in fiscal year 2011. That program, created 
without congressional approval, would allow veterans in urban 
areas, even though they have access to cemeteries within a 75-
mile radius, to create new columbariums.
    And that has caused a lot of problems because people are 
thinking, well, if they can do it in the San Francisco Bay 
area, why can't we do it down in our area? The rule also 
doesn't consider actual drive time, or driving distances. It is 
just as the crow flies. And there is certainly differences in 
different parts of the country as to how difficult that 75-mile 
guideline has been.
    So I would really ask you to look at that and revise that 
definition to reflect more the practicality of being able to 
get there.

                         RURAL BURIAL POLICIES

    We are trying to put it all together to try to get a State 
cemetery in California by having the locals raise money. Our 
veterans have had to go out and do bake sales, they have had 
golf tournaments. The State wants about $10 million raised out 
of it. The locals are not going to make it. And it is just 
tragic that, if we are going to have this program, that we 
don't use a little bit more of your stick, carrot and stick to 
make these States step up to the plate and take the 
responsibilities. We spend about $10 billion in veterans 
benefits in the State of California. Ten billion. I mean that 
is a huge part of our economy. And we never get thanks for it. 
And I want to thank you for being in charge. And I want you to 
use your general leadership to shape up the troops out there, 
shape up my State and local government troops.
    Secretary Shinseki. Congressman, let me ask Secretary Muro 
to respond to the specifics of your question regarding rural 
burial policy. I look forward to continuing to work with you on 
trying to meet the requirements for a solution here that serves 
veterans in Monterey.
    Mr. Farr. I would be remiss also if I didn't ask you, on 
behalf of the Northern California Members of Congress, 
bicameral, we would love to have you come visit the Oakland 
office, which has the largest backlog in the country. Really, I 
think your leadership and presence there would make a big 
difference.
    Secretary Shinseki. Okay. Fair enough. Mr. Muro.
    Mr. Muro. Thank you, Secretary, thank you, Congressman 
Farr, for that question. Let me start off by saying I have the 
privilege to lead the National Cemetery Administration, the 
only organization to ever receive a 95 score for customer 
service, not only in the Federal Government but also in the 
private sector. So we do address our customers, and we do work 
with our veterans to ensure they get what they need in the 
burial benefits and other benefits that they have earned.
    We did provide a reply to the rural policy. We submitted 
the policy. The urban policy was also approved by the Congress 
in the fiscal year 2011 budget. So we have those two new 
policies approved. The rural policy is looking at states where 
we have no VA national cemetery service and a population of 
25,000 or less veterans that live in those areas within the 
State. But we are working closely with the States, so they 
continue to build State cemeteries and we don't overlap in 
their service areas. In California, Congressman, as you know, 
we have worked closely recently with your staff and with the 
staff of the State of California. They are actually revising 
their plan because they realize they submitted too high of a 
cost.
    Mr. Farr. I am familiar with that.
    Mr. Muro. And between your staff and my staff, we were able 
to convince them to submit a better plan that is more realistic 
so that they can get funded in our State grants program.
    Mr. Culberson. Mr. Farr, if I could, members that could not 
come back--are you able to come back, Sam, afterwards, after 
votes?
    Mr. Farr. I don't think so.
    Mr. Culberson. Okay.

                  GETTING LOCAL GOVERNMENT TO STEP UP

    Mr. Farr. I know you want to end this. States that are 
interested in building State cemeteries can, and that was 
California's problem, that they didn't want to. They left it up 
to us to devise another method. We have tried to get the local 
government to step in for the State. And so it has been kind of 
a mess, because the locals didn't know how much money they had 
to put up. We need you to use your authorities, if you are 
going to go out and get these States, and even California. Use 
your muscle, and say, look at how much we are putting into this 
State. You got to shape up and be much more responsible in 
helping them. The States never did anything to implement it. 
They just stood back and watched. Now I have beaten the hell 
out of them, and they are paying some attention.
    Mr. Muro. We appreciate your support. I know that the 
Secretary sent the Governor a letter, encouraging him to build 
a State cemetery in Monterey. So we are working closely with 
them.
    Secretary Shinseki. Congressman, I will pick up on that.
    Mr. Farr. This should have been the Feds that built it.
    Mr. Culberson. Thank you, Mr. Secretary. Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman. I know our time is 
very limited. I just wanted to echo a lot of what has already 
been said. General, I might be the only one that serves on this 
committee that actually served under you when you were the 
chief of staff and I was a young, much skinnier captain down at 
Fort Hood. So it is an honor to be here getting a chance to 
address you as a Member of Congress.
    You know, one of the hardest parts of my job, and I 
represent south central Florida and St. Petersburg regional 
office, I was told had the sad distinction of being one of the 
largest backlogs in the whole country. And one of the hardest 
parts of my job, and I am sure everybody else here, is when we 
get these constituent service issues that come into our 
district offices and it deals with, you know, my backlog, my 
claim, it has been so long, and we are making excuses almost 
for you of why things are taking so long. And you sort of run 
out of answers. And when we are trying to work together, it 
just gets very frustrating. And I think that you have heard a 
lot of that up here today. I certainly have a lot of retirees 
in South Florida.
    So a lot of my questions don't deal with banks, they deal 
with the VA. I am encouraged by a lot of the things I have 
heard up here today with regard to the integrated computer 
system. We came into government together as far as up here. I 
came in in 2008 as well. And I heard you testify in the 
Veterans Committee about doing this then. So I mean the time to 
move forward, hopefully 2015 is realistic, and I know that you 
have added on a lot of things, but I would disagree with one 
thing that you said, and then I am going to yield, is you said 
that there is sort of a separation between DOD and the VA when 
it comes to their lane of providing national security, and 
yours as taking care of the people after they get out.

                           DOD-VA CORRELATION

    I think there is a correlation. I think that people will 
see certainly if we are not doing what George Washington said, 
taking care of the people that serve our country as a 
reflection of who we are as a Nation, then why the hell would 
they join the military if they are going to see that once they 
get out they are not going to be taken care of?
    So, again, it has been an honor to serve under you, sir, 
and, you know, I am rooting for you. And but we have had to 
make a lot of excuses to our constituents that is just getting 
very cumbersome. I don't know why DOD and the VA doesn't do one 
single computer system, as Mr. Bishop said, from enlistment 
until death. I don't get that. But anyway, thank you very much. 
I don't have a question. I am going to yield to Mr. 
Fortenberry.

                       HIRING OUR HEROES PROGRAM

    Mr. Fortenberry. Mr. Secretary, pleasure to see you, and 
thank you all for coming today. And I regret our time is so 
compressed. So I am going to throw out a few points for your 
consideration, and you might not have time to respond. First of 
all, Hiring Our Heroes. Thank you for partnering that. This is 
very important. It is an absolute scandal that there is an 11 
percent unemployment rate among veterans, perhaps higher given 
that the national average is perhaps 8 percent or higher. We 
had a very successful event back in my district in Nebraska. 
The willingness of the private sector to partner to look for 
people with leadership and technical skills that are coming out 
of the military I think is something that we must continue to 
unpack and expand and promote. Good program. So thank you for 
working on that.

                         CONSTRUCTION BACKLOGS

    I have a question regarding the current capacity of our 
system. If we are at a high water mark in terms of the number 
of veterans coming through, what those projections look like 
over time. And that, of course, begs questions about future 
capacity and shifts of capacity. Related to that, in Omaha we 
have got a VA Hospital where the operation room is closed 
because it is potentially dangerous because of the shabby 
condition of it. The new hospital in Omaha is at least 10, 
perhaps 15 or maybe more years away in terms of construction. 
You have got a lot of projects ahead of that, many of which are 
concentrated in California. It would be helpful for us to 
continue to understand, you know, how we move forward in a more 
aggressive way to get a facility that makes sense there. I have 
a related question regarding how the VA is beginning to look 
creatively at partnering with other institutions to carry on 
the important legacy of targeted services in the medical sphere 
for veterans, exclusively for veterans, but perhaps in full 
partnership with other institutions that could actually help 
you deliver effective services and save money. Thank you, Mr. 
Chairman.
    Mr. Culberson. The vote is closed. So we will recess. I 
think there will be a couple of members coming back to ask 
additional questions. Thank you very much. The committee will 
stand in recess. Thank you.
    [Recess.]
    Mr. Culberson. The Committee will come to order. We want to 
thank each of you for your patience while we went to that 
series of votes. And the chair recognizes at this time my good 
friend from Mississippi, Mr. Nunnelee.
    Mr. Nunnelee. Thank you, Mr. Chairman. Mr. Secretary, I 
really do appreciate your staying around to be able to address 
some very important issues. Sonny Montgomery was a man who 
served honorably in this body, and dedicated his entire career 
to making sure that veterans had the benefits and care that 
they had earned. We have a hospital in Mississippi that bears 
his name.
    In March, the Office of the Special Counsel, whose 
responsibility is to handle complaints from whistleblowers, 
issued a report. And I will just quote from that report. Ms. 
Carolyn Lerner says that, ``Collectively, these disclosures 
raise questions about the inability of this facility to care 
for veterans and its services.'' And I understand that 
investigations are still underway. We may be moving in the 
right direction, but we have a long, long way to go.

                    SPECIAL COUNSEL'S INVESTIGATION

    Our veterans deserve the best medical services. And I am 
not really sure why we have these same problems year in and 
year out. I will give you a chance to respond to the overall 
issues raised in that report, but I would also like you to 
respond specifically. Can somebody give me an update on the 
Special Counsel's investigation on the failure of the VA 
radiologists to properly read or even read at all thousands of 
x-rays and MRIs? And have the affected patients been contacted?
    Secretary Shinseki. Congressman, let me call on Dr. Petzel 
to provide a response here.
    Dr. Petzel. Thank you, Mr. Secretary. Congressman Nunnelee, 
to respond directly and specifically to the issue of radiology, 
this is a three-year-old item that has been investigated by the 
VA and by the Inspector General on three different occasions, 
and have verified the fact there was really, in essence, no 
patient harm. The Special Counsel has asked us to take another 
look at it. And we are having another external review of the 
radiographs that were called into question. But to speak a 
little bit more broadly about Jackson, we obviously are 
committed to providing the very best care we can for America's 
veterans, and ensuring that that care meets the highest 
standards of quality.
    The VA has a national reputation for the quality and safety 
of its programs. The issues that have been raised there by the 
Special Counsel, there were five of them, three have been 
closed, two are in the very end stages of investigation and 
being closed. New management there I think has addressed the 
problems that existed. And the hospital is now a very, very 
good hospital. Its quality scores over the last year are 
excellent. It has been reviewed by 48 external agencies and 
groups in the last 18 months, all of which have given it a very 
clean bill of health, including the Joint Commission. This is a 
good hospital.
    Mr. Nunnelee. So as a follow-up, you say there was no 
patient harm. Is it the VA's contention that these allegations 
that these x-rays and MRIs that were alleged were not read were 
in fact read? Or are you saying that they were not read and 
there was no patient harm in the fact that these were not 
properly read?
    Dr. Petzel. Congressman, there were x-rays that were not 
read, or maybe not read properly. What I am saying is that as a 
result of that, there was no patient harm.
    Mr. Nunnelee. Now I am really confused. If I am a patient 
and my x-rays are not read, how can there be no harm?
    Dr. Petzel. It may have been a routine chest x-ray. First 
of all, let me make it clear, we don't want anybody's x-rays to 
not be read in a timely fashion. And that is not the case at 
the Jackson VA any longer. But if it is a routine chest x-ray 
and it is not read, or it is read a week or two weeks later, 
that is not going to harm the patient.
    Mr. Nunnelee. Is that the same expectation that you would 
have in a civilian hospital, that you have routine x-rays that 
are never read?
    Dr. Petzel. Oh, absolutely not. As I just said prior to 
that statement, that we expect the x-rays to be read the same 
day in a timely fashion, absolutely. And that is the standard 
that Jackson is performing at right now.
    Mr. Nunnelee. But there is no patient harm if the x-rays 
were not read?
    Dr. Petzel. The example I gave, I think, Congressman 
Nunnelee, stands.

                  VETERANS ADMINISTRATION'S IG REPORT

    Mr. Nunnelee. All right. Let me move onto a second report. 
The Veterans Administration Office of the Inspector General 
issued another report with several areas of deficiencies, 
including deficiencies in cleanliness, medications not having 
proper labels, et cetera. What is being done in that--in the 
area to address that report?
    Dr. Petzel. Congressman Nunnelee, could you give me a 
little bit more specifics about what that investigation was?
    Mr. Nunnelee. All right. I have in front of me, the 
Veterans Affairs Office of the Inspector General report dated 
February 17, 2013. Eight evaluations. It says five were not 
reported in a timely manner. In addition, for all 12 months the 
standard of continuing care stay reviews was not met. In 
addition, regarding the facilities' ability to maintain a clean 
and safe health care environment, the Office of the Inspector 
General had several findings, including two of nine areas that 
were inspected that were not clean, and in four units 
medication bottles did not have the proper labeling or 
expiration dates.
    Dr. Petzel. Congressman, I understand now. You are talking 
about the comprehensive three-year review that the Inspector 
General does, we call it the CAP review. That was actually a 
very good CAP review report. There were some findings. There 
were fewer findings than we see on average in a CAP review 
around the country. And the organization, the medical center, 
now has in place a solution to fixing each one of those 
individual recommendations. We rely on the CAP reviews to help 
us ensure that we are doing the high quality care that we 
expect to do and that our veterans deserve. And we take those 
recommendations that they come up with very seriously. But this 
was, in essence, a good CAP review for the Jackson Medical 
Center. It is one of the external reviews that I referred to 
earlier.

                    OBTAINING ACCESS TO SPECIALISTS

    Mr. Nunnelee. All right. And Mr. Secretary, I have got a 
more general question. I continue to hear from veterans that I 
represent that have great difficulty in obtaining access to 
specialists, as opposed to general care. And I still haven't 
figured out why that is occurring. Are you aware of other 
problems around the Nation with access to specialty medical 
care?
    Secretary Shinseki. Congressman, I would say that if you 
were to look back over the past 4 years, a tremendous 
investment on our part is to provide tele-health, telemedicine 
connection for wherever a veteran enters our health care 
system, and there is not a specialist located at that facility. 
There is always a need, even with the number of specialists we 
have, we don't have them in each outpatient clinic. Wherever 
they enter, they can have access to that distant location where 
the specialist may be located.
    This year we are investing another $460 million to make 
this vibrant connection between our hospitals, our community-
based outpatient clinics that are located in communities where 
veterans live, 300 or so vet centers, and probably 80 mobile 
vans that travel to the most remote areas. All of this is 
connected by tele-health, telemedicine hookups to address the 
problem that you brought up. As I say, a veteran, no matter 
where he or she lives, deserves to have access to the best 
health care we have in our system, whether they are in a remote 
rural area or in the suburbs of Washington, DC. That is my 
personal goal.
    Mr. Nunnelee. Well, thank you. And as has been articulated 
by other members of this subcommittee, I look forward to 
working with you to make sure that the men and women who have 
defended freedom get every bit of the benefits in health care 
that they have earned. Thank you.
    Secretary Shinseki. Thank you, Congressman.
    Mr. Culberson. Thank you very much, Mr. Nunnelee. Mr. 
Fattah.
    Mr. Fattah. Thank you, Mr. Chairman. First of all, I think 
that the work that you have done has been extraordinary given 
the challenges that the VA faced when you walked in the door. 
After having an entirely paper-based system, the fact that you 
are now processing over a million claims a year. There is every 
reason for us to believe that you are going to be able to 
achieve your goals by 2015.
    So I want to thank you not only for your previous service, 
which has always been heralded, but also your current service 
leading the VA. The chairman and I work together on another 
subcommittee, and we created a neuroscience collaboration among 
a number of agencies that has been in place for the last year. 
The VA has been one of the leading participants looking at a 
whole set of initiatives around what we can do about hundreds 
of brain diseases and disorders. And I want to thank the 
chairman publicly for his help. There is always this notion 
around here that we don't act in bipartisan ways. And it is 
actually not the truth. We get a lot done.

             EPILEPSY CENTERS AND TRAUMATIC BRAIN INJURIES

    This is an initiative that I have talked to you about over 
breakfast. In addition to your work with the Epilepsy Centers 
for Excellence and the other work on TBI, traumatic brain 
injuries, there are in your budget a number of important areas 
that we want to continue to make sure receive the appropriate 
level of support. I think that the public is not aware that a 
large percentage of our returning veterans who have been 
injured have also suffered brain injuries. I was at the 
Intrepid Center, looking at some of the work being done there. 
If you could make some comments on the record about this 
particular area of work. Because it has applications not just 
inside the VA for the veterans you are serving, but also for 
the general public.
    Because as you know, there are 1.8 million traumatic brain 
injuries in the civilian population, young people a lot of 
times who are engaged in a lot of activities end up being 
injured. So a lot of what you have learned is applicable over 
on the civilian side too. So thank you for your testimony 
today. I would be glad to hear your response.
    Secretary Shinseki. Congressman, I am going to call on Dr. 
Petzel here to provide some detail specifically about the 
research on the brain. I would just say overall, we are 
requesting for this year, $586 million in 2014 for research 
projects. We have probably, in priority, about 2,200 projects 
that we have identified we want to work on. Things we go after 
are the unique needs of veterans. That usually refers to PTSD 
and traumatic brain injury.
    Also pain and prosthetics, with focus on veterans coming 
out of the current conflicts, Iraq and Afghanistan. What we 
learn there in prosthetics applies to vast generations. Also 
homelessness and women veterans research. We know that in VA we 
are about 6 percent women veterans today. In the active force, 
it is 15 percent. We know there is a flow of veterans coming to 
us. We don't have a lot of background and research on women's 
health issues. We need to be out ahead of this. So that is 
another priority. Let me ask Dr. Petzel specifically to address 
the brain research.
    Mr. Fattah. Thank you.
    Dr. Petzel. Thank you, Mr. Secretary. Congressman Fattah, I 
want to thank you and the Chairman for your interest and your 
energy around the brain sciences and the research efforts 
around brain sciences. This is an effort that is certainly 
going to very directly affect the health and the well-being of 
America's veterans, for reasons such as you cited earlier, 
including the number of people that are returning with brain 
injuries of some kind.
    There are 50,000 people who have been evaluated for mild to 
moderate traumatic brain injury; 34,000 veterans have been 
positive. So this is really going to have an impact on our 
community. And we appreciate it. I will just tell you briefly 
how the VA is engaged in this effort. First of all, we have 
about $123 million worth of research that is being directed at 
mental health issues, many of which will have direct impact on 
the neuroscience research projects that are going on. DOD and 
the Department of Veterans Affairs are engaged in a joint 
effort, under the aegis of the President's executive order, to 
each commit $50,000 over 5 years to efforts to develop research 
in PTSD and traumatic brain injury, specifically focusing on 
trying to develop biologic markers for those two illnesses. 
This will assist us in making the diagnosis, and to mark the 
progress in therapy with these veteran patients who have come 
back from war with these unseen injuries.
    Mr. Fattah. Thank you. And just to clean the record, you 
meant $50 million each.
    Dr. Petzel. I did. What did I say?
    Mr. Fattah. Fifty thousand.
    Dr. Petzel. Oh, yes, thank you. I appreciate that.
    Mr. Fattah. You know, my father was a veteran, and my 
father-in-law, and my brother served. The VA means so much to 
so many of our fellow citizens in terms of the range of its 
services. I have a young man in my office in Philadelphia who 
handles veterans affairs who served in multiple tours in Iraq 
and was injured in his last tour. Some 59 operations later he 
is healthy, and has got a better golf score than me. He just 
got married. He is going to have his first child, and is in 
graduate school. All of this because of the work that the VA is 
making possible in terms of his continued care. That represents 
a story that you could tell all over the country. And even as 
we talk about this backlog, I want to make sure that the record 
is clear that for each returning veteran, there is 5 years of 
health care. This is without having to do with the processing 
of their claims. So their health needs are being met 
immediately. Is that correct?
    Secretary Shinseki. That is correct, Congressman.
    Mr. Fattah. So I want to thank the chairman and the ranking 
member for holding this hearing and dealing with this. There is 
no more important subject matter. And again, let me thank you 
publicly for you and Chairman Wolf, and your willingness to 
work with me on this neuroscience initiative, which I think is 
going to vastly improve our ability to address a whole host of 
challenges related to brain diseases and disorders. Thank you.
    Mr. Culberson. It is tremendously important work that I am 
proud to work with you on. And it is also a pleasure to work 
with you in support of the sciences, the medical and scientific 
research that we both have a real passion for on that 
committee, the space program. We do. The press is not accurate, 
the public is of the impression we don't work together, and 
actually we do.
    Mr. Fattah. We have done some great work together, and it 
is going to be meaningful in millions of people's lives. So 
thank you.
    Mr. Culberson. Absolutely. We do appreciate it. I also 
really appreciate Mr. Fattah bringing home a point that I can't 
reemphasize enough, and that is the tremendous successes, what 
a blessing you are for the lives of so many veterans and their 
families and the health care that you provide. I also hear 
almost nothing but glowing reports of the work that is done by 
the VA hospitals. We are all frustrated with the backlog of 
disability claims, but that is a separate issue. As Mr. Fattah 
said, it is from the health care that you provide as the 
veteran leaves the service and goes into a VA Hospital. The 
DeBakey facility that is in Houston, Texas, I hear just nothing 
but rave reviews and great work that is being done down there. 
I thank all of you in public, and to reiterate my good friend's 
quite appropriate comments. Because we are all so stirred up 
about the disability claims, we neglected and should have 
focused on just saying thank you again, A, for all that you do, 
B, certainly for that health care service that you provide. And 
all the help that we can provide you to speed up the disability 
process.

                      SINGLE MEDICAL HEALTH RECORD

    Thank you. I would like to, if I could, we are going to 
have to clear the committee room here shortly, but I did want 
follow up, if I could, Secretary Shinseki, and it would be 
very, very helpful I think for the record and for moving 
forward on the unified medical record. I wanted to ask you, 
sir, if you could definitively and clearly endorse for the 
record: do you believe it would be a good idea for there to be 
a common system chosen by both Departments, DOD and VA? And I 
would like you to just be very clear. And we hope you would 
endorse and support that idea. And if both Departments do not 
choose a common system, why shouldn't Congress insist that they 
do so?
    Secretary Shinseki. I think Congress has registered their 
concerns and interests on this in prior hearings. And I think, 
Mr. Chairman, that is reflected in the actions of Secretary 
Gates and I, Secretary Panetta and I, and now about to enter 
into our discussions with Secretary Hagel. We have committed to 
a single joint common integrated electronic health record. We 
don't want to have two systems. We are working on how to put 
this in place. We have also committed, our two departments, in 
past discussions, to an initial operating capability in San 
Antonio and in the Tidewater region of Virginia with initial 
operating capability in 2014. There is an expectation that we 
are going to show some progress.
    Mr. Culberson. And you share the opinion it would be far 
better, far more beneficial to veterans and better for the 
taxpayers that DOD and VA operate one system.
    Secretary Shinseki. I agree with that.
    Mr. Culberson. Are you aware of any technical reasons why 
one system could not be adapted to meet the needs of both 
Departments?
    Secretary Shinseki. I am not aware of impediments. Are 
there opportunities to improve what we have? That will be 
ongoing, Mr. Chairman. When we in VA first fielded this 
electronic health record in 1997, it took us perhaps 7 years to 
get it fully up and running and integrated throughout our 
operations. It cost about $4 billion, but the return on 
investment has been $7 billion. Our health care quality has 
gone up, safety has gone up because physicians have access to a 
medical record that they had probably access on 60 percent of 
the time. Our vaccinations for veterans over 65 was trailing 
the country in 1997. Today we lead the country, well into the 
90s. So it has a cost benefit, a health care benefit, and 
provides safety to veterans. I think this is all good news for 
what we are trying to accomplish here.

           COST TO MODERNIZE VISTA ELECTRONIC HEALTH RECORDS

    Mr. Culberson. How much, Mr. Secretary, do you anticipate 
it will cost to make the necessary modernizations to your VistA 
electronic health record? And now that you and the DOD have 
decided to go two different paths, your budget requests $344 
million for the electronic health record. Do you expect that 
number to change as DOD selects its own system?
    Secretary Shinseki. I await a discussion with Secretary 
Hagel--since this is a joint project--on how these numbers will 
shake out, but our 2014 budget request accommodates what we 
expect is our need, and that is $344 million that will cover 
our requirements in 2014.
    Mr. Culberson. Well, I know the Congress, all of us, feel 
very strongly we need a unified medical record and hope you 
will continue to pursue that, and we will certainly help you 
with it.
    Let me ask a couple of quick questions for my good friend 
and colleague Bill Young, and then pass back to my good friend 
from Georgia.
    Chairman Young has asked--he is not here today and regrets 
it very much because he is chairing a hearing of a subcommittee 
with the commanders of U.S. Central Command and our forces in 
Afghanistan; however, he did ask me if I could ask you to 
comment on three issues.

                  POINTS SYSTEM TO MEASURE PERFORMANCE

    Chairman Young understands that the point system that is 
being used to measure the output of claims processes has 
resulted in some employees cherry-picking claims, going through 
the easy ones first because they can get more points for them. 
Chairman Young has asked for your thoughts on this system and 
how widely used the point system is within the VA system.
    Secretary Shinseki. I am going to call on Secretary Hickey 
here to provide some detail.
    I would just say, Mr. Chairman, that when we imposed the 
Agent Orange decision, it slowed things down, and so we are now 
trying to get the oldest claims moving. I think there is a good 
opportunity to do this. I don't profess to know everything that 
goes on in the claims processing business. I have not heard of 
the cherry-picking phrase, but let me just ask Secretary Hickey 
to comment.
    Ms. Hickey. Thank you, Chairman, for the question.
    We do rely on a point system for doing claims and for 
production requirements for our staff; however, we have heavy 
engagement and oversight from our coaches, who are in 
supervisory positions within those smaller teams. They are 
engaged in actually making sure work is distributed in a fair 
and equitable way. We are also looking at, how we are moving 
into a new environment and where our productivity is 
increasing. We are now in our new segmented lanes across the 
board 9 months ahead of plan, in express, core, and special 
lanes of operation. We are also in conversations with our 
employees' representatives on what we can do around our point 
systems to increase productivity with our employees and to also 
focus heavily on quality.
    Secretary Shinseki. If I could just add to that.
    Mr. Culberson. Certainly.
    Secretary Shinseki. One of the benefits of having an 
automation system is that, to the question you asked, we can 
now see individual performance by our claims adjudicators, and 
we can begin to focus in on what is going on. Right now with 
all that paper, it is hard to see, and you get anecdotal 
reports, and then you go charge off to check. One of the 
benefits here of the automation system, which is what we want, 
is to be able to manage and be able to acknowledge where we 
have issues, and we have to go to work on.

                        PAPERLESS CLAIMS SYSTEM

    Mr. Culberson. Chairman Young has also asked about the 
paperless claims system, and he is being told by constituents 
that are concerned that the system is actually slowing down the 
claims process. Could you comment on that, and also whether or 
not you have found it difficult to hire enough people? He is 
wondering is there a staffing problem within the VA disability 
system, Ms. Hickey, and if so, what are you doing to solve the 
problem?
    So if you could answer those two about slowing down the 
paperless process, slowing down the claims process and 
staffing.
    Secretary Shinseki. We are fielding a new system, and as 
you field, I do think you have a little degradation in the work 
efficiency. I mean, for those of us that have gotten a new 
computer with a new program on it or even changed our password, 
instead where the old password is, automatic--with a quick run 
of the fingers, the new password slows us down until we get 
into the rhythm of it.
    I think the man-machine interface here is true. There is a 
little bit of degradation, but once you get through that 
period, and it is a short period, the power of the 
microprocessor gives you a much better return for that 
momentary loss of efficiency.
    Let me turn to Secretary Hickey for the second part of the 
question.
    Ms. Hickey. Chairman, we are actually staffed at 101.4 
percent of our authorization, and so we are fully staffed. Our 
attrition rate, frankly, in VBA is very low. In fact, the 
standard for all Federal Government is 17 percent. Right now 
our attrition is about 6 percent. We are hiring a lot of 
veterans. In fact, last year, fiscal year 2012, 82 percent of 
everyone we hired in our regional offices was a veteran. We are 
very focused on bringing veterans into the work environment and 
also into an environment where they continue to care for one 
another.
    Mr. Culberson. That is marvelous. I deeply appreciate your 
service to the country.
    Mr. Bishop, any further questions?
    Mr. Bishop. I will have some further questions for the 
record. We will submit them to the record.
    Mr. Bishop. Let me thank all of you for your attendance, 
Mr. Secretary, and we know that you have a very, very difficult 
challenge that you face in behalf of looking after those who 
have looked after us. You know that all too well. So we look 
forward to continuing to work with you to meet these 
challenges, but we cannot at all not hold ourselves, hold the 
Department accountable for taking care of the veterans, because 
they have sacrificed so much for the freedoms that we enjoy, 
and we want to make sure that we do right by them.
    Mr. Culberson. Thank you very much. And I do want to 
reiterate Mr. Bishop's gratitude. We admire you deeply, 
appreciate so very much your service to the country, and look 
forward to working with you to help you make sure that our 
veterans have the best health care in the country.
    Secretary Shinseki. Thank you. Thank you, Mr. Chairman, to 
both you and the ranking member, for support over a number of 
years now, and I want to assure you, we are sighted on what is 
right, and that is to take care of this claims backlog. We have 
a plan. This year's budget looks for resources to allow us to 
do that. So thank you very much for your support.
    Mr. Culberson. Thank you very much, sir, and the hearing is 
adjourned. Thank you.
    [Questions for the record follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

</pre></body></html>
